                                 Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission




                                                                                                      58
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

                                                                                           Denali Commission
                                                                                         510 L Street, Suite 410
                                                                                         Anchorage, AK 99501

                                                                                              907.271.1414 (P)
                                                                                              907.271.1415 (F)
                                                                                             888.480.4321(TF)
                                                                                               www.denali.gov


                                                                                      INSPECTOR GENERAL



                           INSPECTOR GENERAL’S PERSPECTIVE ON MANAGEMENT AND
                          PERFORMANCE CHALLENGES FACING THE DENALI COMMISSION


        The OMB-required Performance and Accountability Report (the “PAR”) is largely a book
        authored by the agency’s management. However, OMB reserves one of the final sections for the
        inspector general’s perspective:

               The PAR shall include a statement prepared by the agency’s Inspector General
               (IG) summarizing what the IG considers to be the most serious management and
               performance challenges facing the agency and briefly assess the agency’s
               progress in addressing those challenges.


                               The “Other Alaska’s” daily dose of Hurricane Sandy

        The nation recently watched as Hurricane Sandy deprived many of their electricity, clean water,
        mobility, and shoreline homes.

        The government’s response to this disaster illustrates three American values. First, the public
        expects some level of government to provide some level of basic public facilities for “decent”
        living (“basic infrastructure”). Second, the public expects the federal government to respond to
        disasters with aggressive rescue and rebuilding (something akin to our “Marshall Plan” for
        restoring other countries). Third, the first two expectations are universal regardless of the
        geography that one calls “home.”

        But the deprivations from Hurricane Sandy are often everyday life in the “other Alaska” — the
        “bush” where the cruise ships don’t take their visitors from the “Lower 48.” The remote
        settlements served by the Denali Commission are far from the roads, the power grid, and the
        state’s scenic railroad. The electricity is sometimes, the fuel tanks leak, the food rots, the garbage
        sits, and the homes wash away. The water is undrinkable, a shower is a treat, and the bathroom is
        a bucket. The teeth fall out and people get diseases that we assumed were history.

        In short, the third world conditions of the “other Alaska” are still out there in the land beyond the
        tourism commercials and the travelogues.

        Denali’s original strategic plan idealistically aspired that “[a]ll Alaska, no matter how isolated,
        will have the physical infrastructure necessary to protect health and safety and to support

                                                                                                                   59
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

        self sustaining economic development.”1 Nevertheless, one of Denali’s most difficult and
        uncomfortable issues has always been the size of community that warrants public support (versus
        self-support). While national lore may abstractly decry construction to “nowhere,” the choices
        are very real — and very serious — for rural families that must go without what most of America
        takes for granted.

        But the truth is out there: projects throughout Denali’s subject areas have often been awarded to
        “micro-settlements” with less than 200 people. And the controversy continues to this day over
        the serviceable size of the communities that should receive the funded projects.

        And it remains as a recurring theme in our inspections of Denali projects. In July, we visited the
        $2 million clinic shown in Exhibit 1 that Denali built in tiny Goodnews Bay (est. pop. ≈ 250).2


                                                                                                 OIG PHOTO TAKEN JULY 25, 2012




                                     EXHIBIT 1 – DENALI-FUNDED CLINIC AT GOODNEWS BAY (POP. ≈ 250)



        But minimal facilities are still very much a part of the “other Alaska.” For instance, the hamlet of
        Platinum (est. pop. now ≈ 70) was once the nation’s largest mine for the valuable mineral worth
        more than gold. While the federal government supports the small post office shown in Exhibit 2,
        the settlement still makes do with an even smaller “sewage treatment facility” shown in
        Exhibit 3. The latter is, of course, merely a tank on wheels that periodically gathers the human
        waste stored at homes.

                                                    Retooling for reduced resources

        The programs entrusted to Denali have varied over the agency’s life span with changing
        congressional priorities and support. Denali started in the late 1990s with only around
        $20 million and a mission to replace leaking fuel tanks. In the agency’s heyday, it had annual

        1
            Denali Commission Five Year Strategic Plan (2005-2009), page 3 (emphasis added).

        2
            Our inspection was conducted on July 25, 2012.


                                                                                                                                 60
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

        congressional support of well over $100 million for clinics, training, housing, community
        centers, transportation, and rural electrification. Congressional support today has dwindled down
        close to the startup funding, and now only the latter program receives new money.

        Our reports over the years have criticized the
                                                                                                           OIG PHOTO TAKEN JULY 25, 2012
        low matching contributions by Alaska’s state
        government, which has no personal income tax,
        no state sales tax, and a long-term savings
        account sufficient to fund much of its operating
        expenses. This stands in stark contrast to the
        financial shortfalls of states like Illinois3 and
        California as they struggle to make ends meet.

        In fact, this inspector general has publicly
        recommended that Congress reauthorize the
        Denali Commission as nonprofit corporation
        rather than continue it as an independent federal
        agency. Congress would thereby give it the legal
        capacity to assemble its own funding from
        nonfederal sources.4
                                                                                                EXHIBIT 2
        In July, Congress did indeed amend Denali’s                                POST OFFICE AT PLATINUM (POP. ≈ 70)
        enabling act to allow it to accept funding from
        a diversified spectrum of public and private
        sources.5 It remains to be seen how Denali will                                                    OIG PHOTO TAKEN JULY 25, 2012
        implement this new freedom to fend for itself.

        Federal grants and contracts are big business
        in Alaska. Per the state economist,6 Alaska
        ranks first in the nation in its per capita receipt
        of federal grants. And it ranks fourth in the
        nation for federal contracts.

        Alaskan grantees and contractors have
        understandably sought to maximize federal
        funding and minimize the federal strings
        attached to it (also known as bureaucracy,
                                                                                             EXHIBIT 3
        inflexibility, restrictions, and red tape). And,                        SEWAGE COLLECTION TRAILER AT PLATINUM
        according to local lore, this was precisely the


        3
         See Michael Powell, “Illinois Stops Paying Its Bills, But Can’t Stop Digging Hole,” New York Times, July 3, 2010, pages A1,
        A11.
        4
            See Denali OIG, Semiannual Report to the Congress (May 2012), page 5, at www.denali-oig.org.
        5
            See section 1520 of P.L. 112-141 (enacted July 6, 2012).
        6
          See Neal Fried, “Federal Spending in Alaska,” Alaska Economic Trends (Feb. 2012), pages 4-8, available online at http://
        labor.state.ak.us/trends/feb12.pdf.
                                                                                                                                           61
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

        vision of the late founding senator 7 when he first discussed the possibility of a Denali
        Commission at the very remote “bush” site in Exhibit 4. 8

        Though the founding senator and his seniority are now gone, the agency may have planted the
        seeds of its future funding in its early years — funding that could possibly be tapped at this point
        to continue Denali’s efforts.


                                               Dormant “renewal and replacement”
                                               savings accounts required of grantees

        Rural electrification is the largest program that Congress has funded at the Denali Commission
        (˜ $480 million).
                                                                                                               OIG PHOTO TAKEN JU LY 24, 2012
        Denali has made large grants to the State of
        Alaska to install power plants and tank farms
        throughout the “bush.” Such grants to the State
        have totaled around $240 million.

        Around 60 small cities are among the various
        beneficiaries of these grants to the State for
        power plants and tank farms. Since the State
        uses its Denali grants to construct these
        facilities, Denali attaches some very long-term
        requirements for the cities as a condition of
        their sub-awards.

         Over the past decade, Denali has required
        small cities to open a “renewal and
        replacement” bank account as a condition of
        getting their power plants and tank farms. The
        condition includes a table of the amount that
        the city must deposit each year to assure that it
        can repair — and eventually replace — the
        facility over its useful life of 30 to 40 years.
                                                                                                    EXHIBIT 4
        The theory is that the amounts in these savings                                     REPUTED CONCEPTION SITE
                                                                                            OF THE DENALI COMMISSION
        accounts will — many years down the road —
        be sufficient to replace the facilities that

        7
          Because the enabling act surfaced in a 1998 conference committee, there is little legislative history for a more formal record of
        the agency’s origins.
        8
          The remote site in Exhibit 4 is now abandoned and difficult to approach closer, due to the rotting boardwalk over the spongy
        muskeg. It’s on a backwater slough of the Kuskokwim River about two miles east of the Kwethluk airstrip. The site’s GPS
        position is approximately N 60.794° W 161.38°. We photographed this site during our recent (July 2012) motorboat trip up the
        Kuskokwim River to inspect projects in small settlements. The popular History Channel program, Tougher in Alaska, had a
        “Frozen Freeway” episode about the challenge of using the frozen Kuskokwim River to truck fuel to a Denali-funded tank farm
        at Kwethluk.


                                                                                                                                                62
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

        Denali originally funded. If this assumption works perfectly in practice (unlikely, of course), the
        total in such accounts will hypothetically approach the millions that Denali has passed through
        the State. But bank accounts for even a fraction of this optimal total are obviously still worth our
        scrutiny.

        The grant condition specifies various reporting requirements in support of Denali’s monitoring of
        these bank accounts. Cities agree to (1) open a savings account acceptable to Denali, (2) send
        Denali periodic bank statements, (3) send Denali an annual “audit” or “financial review”
        conducted by a CPA, and (4) send Denali an annual report form on the facility’s operations.

        And cities agree in advance to some very decisive enforcement by Denali if the latter is
        dissatisfied with their use of the facilities. Denali’s commitments in the grant documents,
        in effect, position the agency as a form of guardian, trustee, guarantor, or receiver for decades
        long into the future.

        Unfortunately, our interviews of Denali’s employees show that the agency has never established
        any system for the monitoring of these bank accounts that its policies represent the agency will
        provide. The current status of these accounts is thus unknown.

        The accounts in question were potentially established by around 60 small cities. They
        presumably reflect some substantial portion of the $240 million that Denali has awarded to the
        State for power plants and tank farms over the past 14 years. Even accounts with just 10% of this
        total would be a significant resource for Denali to coordinate for beneficiaries in the years ahead.

                               Expanded use of funding from the Oil Spill Liability Trust Fund

        Another source of future funding with an element of uncertainty is the Oil Spill Liability Trust
        Fund (Trust Fund). Ironically, this may be both the most permanent and the most restricted of
        Denali’s funding sources. We have applied for a Comptroller General’s determination to resolve
        a troublesome ambiguity in Denali’s legislation.9

        Congress has by permanent legislation directed that certain interest earned on the Trust Fund will
        be used by Denali “to repair or replace bulk fuel storage tanks in Alaska.”10 Denali funds the
        construction of these tank farms in hopes of addressing (1) the availability of reliable electricity,
        (2) high fuel costs to consumers, (3) winter fuel shortages that require emergency intervention,11
        and (4) the environmental damage from outdated tanks that leak.




        9
            See GAO, Denali Commission—Use of Oil Spill Liability Trust Fund, # B-323365 (pending for decision).
        10
           See 42 USC 3121 note, P.L. 105-277, div. C, title III, 112 Stat. 2681-640 to 112 Stat. 2681-641, as amended by P.L. 106-31,
        title 1, sec. 105, 113 Stat. 63; 43 USC 1653 note, P.L. 105-277, div. A , sec. 101(g), 112 Stat. 2681-470.
        11
           A recent example would be a Russian tanker’s race to refuel Nome, Alaska (see Jim Carlton, “Fuel Arrives, but Deep Freeze
        Endures,” Wall Street Journal, Jan. 14, 2012, at http://online.wsj.com). The popular History Channel series, Tougher in Alaska,
        had a “Frozen Freeway” episode about the race to truck fuel along the frozen Kuskokwim River to the Denali-funded tank farm
        at Kwethluk. Another example would be tiny Telida (pop. 12 at the time) that waited for winter weather to permit a critical fuel
        flight (see Doug O’Harra, “The Rise and Fall of Telida,” Anchorage Daily News, Feb. 28, 1993, page D8).


                                                                                                                                           63
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission


                                                                                OIG PHOTO TAKEN JULY 25, 2012

        However, Denali’s agency head has astutely
        noted that the long-term prevention of oil spills
        will be promoted by reductions in the amount of
        fuel that must be brought into the bush in the
        first place.

        His point is a good one. Even if rusting tanks
        are replaced, risk remains as the visiting fuel
        barge drapes its long hose over the shoreline to
        connect with the tank farm’s “marine header”
        (see Exhibit 5).

        The Comptroller General is the “booth referee”
        for interpreting such spending laws.12 His deter-
        mination will guide Denali as to the extent that
        use of the Trust Fund’s interest can evolve in
        practice as the need to replace tanks is mooted                     EXHIBIT 5
        by new energy sources and users’ fuel effi-                 MARINE HEADER ON SHORE
                                                                       AT GOODNEWS BAY
        ciencies.




                                                                 MIKE MARSH, CPA, ESQ.
                                                                  INSPECTOR GENERAL

                                                                     NOVEMBER 2012




        12
             See 31 USC 3526(d) and 31 USC 3529.


                                                                                                                64
